No.

IN THE
SUPREME COURT OF THE UNITED STATES

KENNETH RAY MARSHALL - PETITIONER
/

VS.

DEXTER PAYNE - RESPONDENT

PROOF OF SERVICE
I, Kenneth Ray Marshall, do swear or declare that on this date, Wlft!g
20^[ , as required by Supreme Court Rule 29 I have served the enclo sed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that part's counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
Dexter Payne, Director/ADC by service on his attorney of record and named party
Leslie Rutledge, Attorney General, State of Arkansas, 323 Center St., Suite 200,
Little Rock, AR 72201.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on lfY)<\u £ 7K i°of

., 20^1.
(Signature)

33

